                                              ._-      ~~~~
                                                         ~~~ "",,                          ~~~~

                                                                    fILE
                                                                               COpy




                   CORONARY ARTERY BYPASS GRAFT (CABG) SURGERY

                       ASSURING QUALITY WHILE CONTROLLING MEDICARE COSTS




       OFFICE OF INSPECTOR GENERAL
            OFFICE OF ANALYSIS AND INSPECTIONS
':'3
       ".......oz..­                                                                ";t.
                                                      I"'E                                    s;.r".

                                                                           August 1987
                                          Office of Inspector

 The mission of the Office of Inspector General 


 promote the efficiency, effectiveness and integriOIG)
                                                    ty
                                                         is to

                                                        of
 programs in the Uni ted States Department of Health and Human
 Services (HHS). It does this by developing methods to
 detect and prevent fraud, waste and abuse. Created by
 statute in 1976, the Inspector General keeps both the

 Secretary and the Congress fully and currently informed

 about programs or management problems and recommends

 corrective action. The OIG performs its mission by

 conducting audits, investigations and inspections
                                                     wi th

 approximately 1, 200 staff strategically located around    the

 country.

                                 Office of Analysis and Inspections

This report is produced by the Office of Analysis and
Inspections (OAI), one of the three major offices within the
OIG. The other two are the Office of Audi t and the Office
of Investigations.   OAI conducts inspections which are,
typically, short-term studies designed to determine program

effecti veness, efficiency and vulnerabili ty to fraud or

abus e .

                                                    This Report

Enti tIed " Coronary Artery Bypass Graft
                                         (CABG) Surgery ­

Assuring Quali ty While Controlling Medicare Costs,
                                                    " this

report suggests changes in Medicare policies that would

assure quali ty of care and reduce program costs.


The study was prepared by the Regional Inspector . General,
Office of Analysis and Inspections, Region IX.
Participating in this project were the following                   staff:
Paul Gottlober, National Project Director, Region IX


Thomas Purvis, Senior Program Analyst, Region IX
Kathy Admire, Program Analyst, Region IX
Kitty Ahern, Program Analyst, Region V
Leonard Czajka, Program Analyst, Reg ion IX
Deborah Harvey, Program Analyst, Region IX
Mary Hogan, Program Analyst, Headquarters
Rita Lutticken, Program Analyst, Region IX
Neil Merino, Program Analyst, Region IX
Joy Quill, Program Analyst, Region III
Barry Steeley, Branch Chief, Headquarters
Apryl Williams, Program Analyst, Region IX
Marcia Wong, Secretary, Region IX
 CORONARY            ARTERY BYPASS GRAFT    (CABG)   SURGERY

         ASSURING QUALITY WHILE CONTROLLING MEDICARE COSTS




RICHARD P. KUSSEROW                                      August 1987

INSPECTOR GENERAL





OAI - 09 - 86 - a a 076
                       TABLE OF CONTENTS




                                                         PAGE

Execu t i ve Summary

Introduction

Findings
    Medicare CABG Costs Will Continue to Escalate


    Selecti ve Contracting Can    Assure Quality Care

    and Save Money

    Surgeon Fees and Payments: The Reasonable
    Charge Is Not Always Reasonable

    Inconsistent Carrier Utilization Policies Can

    Be Inequi table and Costly



Recommendations
Appendices
Ref erences
           GROWTH IN CABG SURGERIES





300000



                                          ALL CABG

250000
                                          MEDICARE CABG




200000




150000




1 00000




50000




          1975 1977 1979 1981 1983 1985
            1976 1978 1980 1982 1984
                     YEARS
                                  INTRODUCTION

      In 1985, approximately 250, OOD persons underwent coronary
      artery bypass graft (CABG) surgery. Medicare beneficiaries
      accounted for over 25 percent of this total. More , than
      63, 000 hospital bills were processed in 1985 by Medicare
      fiscal intermediaries for Diagnostic Related Group (DRG)
      codes 106 and 107 (coronary bypass           wi th and wi thout   cardiac
      catheterization, respectively). Those              bills resulted in
      payments to hospitals of over $1           billion.      The Office of
      Inspector General (OIG) estimates that physician and other
      Part B payments for these benef iciaries totaled
      approximately $500 million, br inging Medicare s overall
      costs for services associated with coronary bypass surgery
      to over $1. 5 billion (see Appendix A).




           MEDICARE SHARE OF TOTAL CABG DOLLARS
     BASED ON PUBLISHED ESTIMATES OF TOTAL EXPENDITURES




NON- MEDICARE CABG DOLlAS (IN MILLIONS)




                                                    MEDICARE CABG DOLLARS (iN MilLIONS)



                         TOTAL 1985 ESTIMATED COSTS = $5 BilLION
                                  ~~~

                         CORONARY ARTERIES




                                        -p,o.." .0..0" '''0''


                                                LEFT MAIN

                                                CORONARY ARTERY

                                                divides into bo branche.
                                                Th left anterior  deing
       THE RIGHT

 CORONARY ARTERY                                front of th  he
                                                (LA) supplies bloo to

                                                                 including
                                                th left ventricle.   '!
  supplies bloo to
                                                circulex' portion supplies
                                                bloo to th baCk of th
  right side an bottan
 of th het.                                     het.
                                             Circum lie x Coronery Artery




           CORONARY ARTERY BYPASS GRAFTS




BYPASS GRAFTS

fran th aorta to

t\I corat arteries.
Dur ing the course of fieldwork, four of the inspection team
members observed CABG surgery at seven major medical centers
that speciali ze in cardiac care. By observing the surgery,
the team members gained a better appreciation for the nature
of the surgery and the functions and responsibilities of
each member of the surg ical team.
What Is CABG Surgery?


Coronary artery bypass graft surgery is most commonly
performed to alleviate the chest pain (angina pectoris) that
results from the heart being deprived of an adequate supply of
freshly oxygenated blood. Typical bypass surgery involves an
hour or more of preparation by the nurses, technicians and
anesthesiologist before the surgeon enters the operating room.
After the patient has been " prepped, " anestheti zed and
intubated, the surgeon and his assistant proceed to make
incisions in the patient' s leg and chest. The saphenous vein
is extracted from the leg, the sternum is sawed in half and
the chest cavi ty is clamped open. If the internal mammary
artery (IMA) wi II be used, it is extracted from the chest
wall.  The patient is then put on the heart-lung pump which
assumes the heart' s functions dur ing the grafting procedure.
The grafting procedure consists of taking ei ther or both of
the extracted vessels and using them to circumvent coronary
arteries that have become blocked and are restricting the flow
of blood to the heart. The grafts are attached to the aorta
and the af fected coronary arter ies below the places where they
are clogged.
The surgery is usually   elective. Whi Ie it is not ri sk -free,
it is generally considered a safe and effective remedy for
angina.  Although using one or both IMAs has increased the
amount of time for surgery (because it is more difficult to
remove), total surg ical time rarely exceeds 4 hours.     The
average hospi tal stay has been reduced from 16 days in 1980 to
less than 10 days in 1986.
The Controversies Surrounding CABG


Although all the surgeons and cardiologists who were

interviewed agree that CABG may be the only remedy for some

victims of coronary disease, CABG has received a considerable

amount of negative publicity in the last year or two.
Questions have been raised about the medical necessi ty of the
procedure for patients who have single or double vessel
disease but are asymptomatic, patients who have stable angina
and patients who have not been treated very aggressively wi th
medical therapy. Some physicians have expressed opinions that
not only is CABG overused, but also ang ioplasty and angiography
(a diagnostic test where a catheter is inserted and dye

in jected to visuali ze the locations and sever i ty of blocked
arter ies) may not be medically necessary in as many as 

percent of the cases.

Another controversy surrounding CABG involves the hospi tals
where the surgery is performed. Are better results obtained
in faci li ties that speciali ze in cardiac surgery? If so, how
many bypass surgeries should be done in a hospi tal for it to
be considered satisfactory? How can hospitals be compared and
how can surgical outcomes be measured? Are charges less
hospi tals that specialize?

The costs associated wi th   CABG have been nearly as
con troversia1 as the surgery
procedures, CABG
                               itself. Among surg ical
                   is one of the most expensive. Charges are
generated by the hospi tal, the   surgeon, one or more assistant
surgeons, an anesthesiolog ist, a cardiolog ist and, sometimes,
laboratories, pump perfusionists (who operate the heart-lung
machine dur ing surgery) and nurse anesthetists.

Improved Quality and Efficiency at Higher Vo1ume Hospitals


In January 1985, Blue Shield of California (BSC), the Medicare
carrier for northern California, approached the GIG about
sponsor ing a study concerning CABG surgery. The carrier was
concerned about the high cost of the surgery and was interested
in finding some means of controlling CABG expendi tures wi thout
compromising quali ty of care.  The OIG arranged funding for the
study through the Health Care Financing Administration (HCFA)
and a contract was entered into between BSC and the Insti tute
for Health Policy Studies of the Universi ty of California
School of Medicine in San Francisco. Since there have been
many major studies concerning the medical necessi ty of bypass
surgery and its long- range benefits, BSC decided that its study
should analyze hospi tal discharge data to see if there was any
correlation between volume of surgery and surgical outcomes.
The April 1986 BSC report, which was published, in part, in
the February 13, 1987 issue of the   Journal of the Amer ican
Medical Association (see Appendix B), states that hospi tals in
California that perform at least 200 CABG surgeries each year

have better outcomes in terms of fewer deaths, lower charges

and shorter lengths of stay than those that do not speciali ze

in bypass surgery. Blue Shield concluded that selective

contracting wi th high volume hospi tals and physicians to
perform CABG surgery would be beneficial for patients as well

as insurers.
The need to assure that Medicare beneficiaries receive optimum
medical care in highly qualified facili ties was underscored by
otis R. Bowen, M. D., Secretary of Health and Human Services,
in the proposed notice concerning Medicare coverage of heart

transplants which was published in the    Federal Register

October 17"  1986.  Heart transplants   would  only be covered
they were performed   in facili ties that were  approved by the
Department because they have demonstrated    experience,
expertise and satisfactory patient outcomes. The criteria
contained in the proposed notice address all of the quali ty of

care concerns that were discussed in the BSC report on CABG.
Objectives of This Inspection

The OIG inspection was designed to (I) document current medical
practices for the deli very of quali ty CABG surgery, (2) obtain
expert opinion on the most eff icient   and economical deli   very
of CABG surgery, (3) determine actual Medicare hospi tal and
medical insurance allowances for a random sample of
beneficiaries who underwent CABG surgery during 1984 and 1985
and (4) identify recommendations that would result in assuring
quali ty of care for Medicare beneficiaries and signi ficant
program savings.
Conceptua1 Approach and Methodology


The OIG Office of Analysis and Inspections worked closely wi
the University of California and BSC during the course
their study.   Several issues from the BSC study and related
work by the carrier were identified that could have significant
relevance for the Medicare program if they exist in other
States to the same degree they exist in    California. After a
series of interviews wi th prominent cardiologists and
cardiovascular surgeons to verify the issues, the OIG decided
that a national inspection should be conducted. The
inspection was designed so that information could be obtained
through data as well as interviews. By utilizing both
interviews and record reviews, the inspection team obtained
expert opinions which were compared wi th actual Medicare
beneficiary history records.
Discussions were held wi th  surgeons and cardiologists who had
pioneered the CABG procedure as well as current practi tioners.
Representatives of private industry, regulatory agencies, State
agencies and carr ier medical staff were in terviewed.
Interviews were held wi th 28 thoracic/cardiovascular surgeons,
16 cardiolog ists and 2 hospi tal administrators.   Detai led
discussions were conducted with 19 health maintenance
organizations and 4 companies with employee health plans
offer ing coronary care coverage. Meetings were held wi th the
Amer ican Medical Association, the Amer ican Hospi tal Association
and the National Insti tute of   Health. Contact was made wi
the Amer ican College of Thoracic Surgeons, the Society of

Thoracic Surgeons and the American Association of Thoracic

Surgeons.
The design of this inspection required that a method be
developed to determine the combined CABG surgery costs for
Medicare Parts A and B. This data is not available in current
HCFA systems. To obtain total CABG costs, a sample of 204

Medicare benef iciaries was selected from the " Part A
Intermediary Bill History " file maintained by the HCFA Bureau

of Data Management and Strategy. The sampled benef iciar ies
were admi tted to a hospital in fiscal years 1984 or 1985 and
were discharged wi th a DRG code of 106 or   107. These 204
beneficiaries represent a random sample comprised of two-tenths
                                                            ::::::




of 1 percent of the bill history file, as updated through
December 31,   1985. Records in this fi Ie were selected on the
bas is of the terminal digits of the Health Insurance Claim
number (HICN). Complete Part A (hospital insurance) bi
histories were reconstructed for these beneficiaries and
Health Insurance Printouts (HIPOs) were provided by the HCFA
Off ice of Health Prog!am Systems. The HIPOs were used to
identify the carriers that had processed the Part B (medical
insurance) bills that related to the CABG surgery hospital
stay.   See Appendix A for more information on the sample and
methodology.
Medicare carriers were requested to provide beneficiary
histories and to complete questionnaires that described their
payment policies for CABG surgery and related services.
Carrier prevailing charge data was requested for fiscal years
1984 and 1985. Responses were received and analyzed from 

carriers servicing 41 States. Claims histories were obtained

for 157 of the 204 beneficiaries.


Structured discussion guides were utilized. Lines of inquiry
included:  the respective roles of the surgeon, cardiologist,
assistant surgeon, anesthesiologist, perfusionist, physician
assistant and nurse; the use of pre- operative diagnostic
tests; the appropriateness of outpatient services; the
selection of surg   ical candidates; the impact of al ternati        ve
therapies; the time involved in surgery and the impact of
technolog ical advances; the number of grafts; the length
hospi tali za tion; the number of surger ies performed; and the
responsibili ty for post- operative          care.

                    STATES VISITED BY THE INSPECTION TEAM
                           FINDINGS

MEDICARE CARG COSTS WILL CONTINUE TO ESCALATE

The physicians who were interviewed during this inspection
indicated that they expect the demand for CABG surgery for
Medicare beneficiaries to increase even though alternative
therapies have been developed to treat coronary heart disease.
Continued growth in the demand for bypass surgery is predicted
because of the extent of cardiovascular disease in our
society, the aging of the population, the reduced risk
associated with the surgery, the number of people who will
need re- operations 10 to 12 years after their first bypass
surgery and the belief that alternative remedies are only
temporary solutions.
The development of new medical therapies and the increased
acceptance of percutaneous trans1uminal coronary angioplasty

(PTCA) have altered the characteristics of the bypass patient
population.   Angioplasty is widely accepted as an appropriate
procedure for coronary disease involving one or two occluded
arter ies, if the patient' s condi tion and the locations and
lengths of the blockages meet certain accepted medical
cr iteria.  The procedure, which is performed by cardiologists
in catheteri zation laboratories rather than by surgeons
operating rooms, involves the use of a balloon catheter which
is commonly inserted through the femoral        artery.
                                                     When the
catheter reaches the blocked portion of the coronary artery,
the balloon tip is inflated and, if the procedure
effecti ve, the plaque is split and the artery is dilated
allowing increased flow of blood.

Because the number of cardiologists recommending and

performing angiop1asty is constantly increasing, - fewer
patients are being referred to thoracic and cardiovascular

surgeons for bypass consideration in the early or less acute

stages of their coronary disease. Initial CABG referrals are
commonly limi ted to patients who are not candidates for
angioplasty or those whom angioplasty has        failed.
                                                     Like
ang ioplasty, the development of new drugs, particularly the
calcium and beta blockers, ultimately results in surgeons
seeing patients who have more acute coronary artery disease.
Because these drugs provide non- surgical relief from angina
pain for many victims of coronary disease, it is only after
drug therapy has failed that patients are recommended for CABG
surgery.
The reduced risk associated with CABG surgery means that
patients who are 70 or 80 years old may now be considered
bypass candidates and would not be automatically excluded
because they have medical conditions or diseases that co- exist
wi ththeir coronary disease. Also, patients who had
angioplasty or their first bypass operation before they became
Medicare beneficiaries may need their first or second bypass
surgery after the age of 65.
The net effect of these changes is that CABG patients are

older and sicker. Furthermore, the increased use of

alternative therapies may be merely delaying the need for

surgery which will ultimately increase CABG costs for

Medicare.

SELECTIVE CONTRACTING CAN ASSURE

QUALITY CARE AND SAVE MONEY

The Blue Shield of CaliforniajUniversi ty   of California study
validated the findings of previous studies that better
surgical results are obtained in institutions that specialize
in cardiac care. This OIG inspection found that hospitals
which perform more than 200 coronary bypass surgeries
annually not only have speciali zed personnel who participate
in the surgical procedure, but also have discrete units
devoted exclusively to cardiac patients. Frequently, these
uni ts are staffed with a coordinator (usually a registered
nurse) who is employed by, or directly reports to, the
cardiovascular surgery group that performs all of the bypass
surgeries at that     hospital.In some of the hospi tals, the
surgeons are salaried employees of the hospi tal corporation or
a related corporation that staffs the  facili ty.   The
continui ty of treatment and care that these relationships
provide may, at least in part, account for the lower mortali
and morbidi ty rates found in the Blue Shield study.    These
arrangements may also faci Ii tate the formulation of package
pricing for CABG medical, surgical and hospi tal expenses.

The Deve10pment of Package prices for CABG

 No longer the exclusive province of pioneer ing surgeons and

 hospi tals, CABG surgery can now be performed by almost 2, 000
 thoracic and cardiovascular surgeons in 698 hospitals.
 Because there are more hospitals and surgeons performing

 coronary bypass surgery than there were IO years ago, many of

 the pioneer ing hospitals and surgeons have fewer CABG

patients.     Also, cost cutting efforts by Medicare and other
  insurers have resulted in reduced hospital occupancy rates.
. For these reasons, there is increased competi tion for patients
 and increased willingness on the part of health care providers

 to negotiate rates. In some instances, providers have

  ini tiated the contracting concept while in others the pr imary
 payer has been the catalyst.
In the spring of 1984, the Texas Heart Institute (THI)
established a subsidiary corporation whose purpose was to take
advantage of " the economies of scale " by developing package
pr ices for certain cardiovascular procedures. Since THI is
one of the largest providers of cardiac surgery in the Nation,
the subs idiary, CardioVascular Care, was able to draw upon an
extensive data base to arrive at a schedule of package prices.
The Texas Heart Institute, like some other providers of CABG
surgery, has experienced a reduction in its bypass patient
census.   Between 1980 and 1985, the number of surgeries had
dropped from approximately 3, 500 to 2,                     500.
                                               In a demonstration
project proposal to HCFA, CardioVascular Care indicated that
it is offering a package price of $13, 800 for coronary bypass
surgery for Medicare and non-Medicare                       patients.
                                                    The package
pr ice includes hospi tali zation for up to 12 days as well as
the services of the cardiovascular surgeon, the cardiologist,
associated staff and all customary laboratory            Contracts
have been negotiated with more than 30 organi zations that are
                                                                         tests.
primary payers of health care for over 1. 5 million people.
Although THI was probably the first provider to offer a fixed
pr ice for CABG surgery, others were soon to            In the        follow.
private sector, prudent buyers of health care have been able
to purchase medical services at significantly lower costs when
they take advantage of the fixed price offers or negotiate
contracts on their own              initiative.
                                      Of the 19 health
maintenance organizations (HMOs) that were contacted during
the course of this inspection, 7 have negotiated all-inclusive
package pr ice contracts wi th medical centers to provide CABG
surgery for their enrollees. Package prices for HMOs range
from a low of $8, 640 for a 12-day hospital stay to $16, 300 for
stays of up to 11          days.
                           This includes all insti tution- related
costs as well as surgical team                  fees.
                                        In highly competi ti ve
markets, it was found that even lower rates can be obtained.
In one metropoli tan area, competi tion has led to package
prices as low as $7,           000.
                            In contrast, Medicare reimbursement
continues at traditional cost levels based on Part A DRG rates
and Part B reasonable charge dete         ons

            Medicare Mean Allowance Compared With Package Prices




          $24 588                  $13 , 800            $16, 300              $8, 640
        Medicare mean                THI                 HMO A                HMOB


 The Medicare mean is based on the inspection sub-sample of 6 to 12- day hospital stays.
There is no question that the savings accrued from these
negotiated rates are substantial. A study by the Metropolitan
Life Insurance Company of the hospi tal and physician charges it
received for CABG surgeries from January 1982 through July 1983
showed that the average national charges for CABG totalled
$21, 800 per case. Metropolitan also found significant
variations in the regional charges for bypass  surgery.   The
highest average regional charge ($29, 500) was in the Pacific
division   (more specifically, California) and the lowest
average regional charge ($18, 300) was in the East South
Central division. Although the average length of stay for the
Metropoli tan data was between 12 and IS days, this would not
negate the substantial savings that the contract prices offer.
A specific example of contract price savings further
illustrates this: Texas Heart Insti tute ' s contract price of
$13, 800 for a 12-day hospital stay is $6, 000 less than the
Metropoli tan study s average charge for a 13-day hospi tal stay
in THI I S home State, Texas.

In over 80 percent of the Medicare cases that were included in
the OIG inspection sample, the hospi tal chargesalone exceeded
the THI contract pr   ice.
                         In Texas, the hospital charges
exceeded the contract price in 9 out of the 10 sample cases.
In 7 out of 10 Texas cases, the actual DRG payment exceeded
the $13, 800 THI price.

To determine potential savings for the Medicare program,
sample cases that involved lengths of stay from 6 to 12 days
were compared with the THI contract price of $13,  800.Annual
savings are estimated to exceed $192  million. Even more
savings would accrue if the package price was the same as the
one shown for HMO B in the chart on page  9. Detai Is
concerning the methodology for computing the projected cost
savings are in Appendix
Do Contracts Work?


Fixed price contracts frequently require that patients travel
outside of their communi ties for surgery; in one contract, the
patient is sent 2, 000 miles away for his bypass operation.
Even wi thout contracts, patients, wi th or without the advice
of their cardiologists, often choose to have their surgery at
a major bypass center located away from home. At least three
of the centers visited in this inspection receive more than
percent of their patients from other States. To encourage
contract utilization, some insurance companies and HMOs offer
free transportation and/or the waiver of coinsurance and
deductibles.
In the most common scenario, the family physician refers his
patient to a cardiolog ist when heart disease is suspected.
Then, if coronary artery disease is diagnosed and a1 ternati ve
therapies fail, the cardiologist refers the patient to a
thoracic or cardiovascular surgeon for bypass  surgery.
angiogram is sent to the surgeon at the time of the referral.
The surgeons who were interviewed in this inspection indicated
that more than 80 percent of the referrals actually undergo
surgery.   The bypass patient usually does not see the surgeon
more than pnce or twice prior to surgery and, post- operatively,
only sees the surgeon while in the coronary care unit. It is
the cardiologist and the family physician who maintain an
ongoing relationship with the  patient.   Therefore, the lack of
any pre- existing relationship between the patient and the
contract surgeon is not a unique   si tuation. The only
noticeable change in the physician/patient relationship
that a contract cardiologist will visit the patient while he
is in the hospi tal, rather than the patient' s personal
cardiologist.   When the patient leaves the hospi tal, a report
is sent to the patient' s cardiologist who renders any
necessary follow- up care.
Office of Inspector General staff contacted four insurers to
find out about their referral process and experience with
actual patient care under their negotiated package price
contracts.  The earliest contract has been in effect since
November 1984. A synopsis of their experience follows.
When it is determined that an enrollee is a candidate for
bypass, the insurers notify the patient that he can have
surgery at a local hospital or travel out of State to take
advantage of the package contract arrangement. The insurers
have found that even though transportation costs are borne
by the patient, the majority of their bypass patients have
chosen to travel to the contract   facility.One HMO estimated
that 90 percent of their patients would choose to travel out
of State to the contract medical center because of its good
reputation.
All the insurers implemented the contracts for cardiac care 

an alternative to their usual reimbursement policy because the

packages are less costly. One HMO has two cardiac care

packages, both at the same price. The only difference is that
one contract is with a local medical center and the other
wi th an out- of-State provider.Two of the insurers offer a
financial incentive to the patients by waiving coinsurance and
deductibles to compensate for the transportation and lodging
expenses.
According to the insurers, both they and their patients have
been very satisfied wi th the process of referral and the high
quali ty of service under their contracts. All the insurers
plan to renew the cardiac care contracts when the current
ones expire. Two self -insured employers commented that local
physicians rendering cardiac care services have approached the
company about negotiating fixed- price contracts; however, the
insurers are so satisf ied wi th the quality of care rendered by
the present provider, that they will automatically renew the
con tracts wi thout soliciting other bids.
The purchasers have found that package price contract
arrangements save program dollars and administrative costs,
while maintaining high quality        care.
                                      They not only eliminate
the need for usual and customary or reasonable charge
determinations but also the need for pre- payment and
post- payment utilization screens.

SURGEON FEES AND PAYMENTS:
THE REASONABLE CHARGE IS NOT ALWAYS REASONABLE

In July 1981, 
 The New England Journal of Medicine published an
article by Dr. Benson Roe, one of the pioneer CABG surgeons.
In his article and in an OIG interview in 1986, Dr. Roe
questioned the efficacy of using the reasonable charge concept
to determine physician payments. As an example of the failure
of the reasonable charge methodology, Dr. Roe discussed the
changes in the primary surgeon s role and responsibility since
CABG surgery was developed. According to the article, the
surgery has become safer and simpler and many of the surgeon
previous responsibili ties have been delegated to other
professionals (cardiologists, anesthesiologists and pump
technicians).    Nevertheless, the surgeon s fee has escalated
and the fees of the other professionals, which are paid
separately, merely add to the total cost of bypass surgery.
The reasonable charge reimbursement system recognizes all of
the charges but none of the changes that would reduce the
surgeon s payment.
The concerns raised by Dr. Roe in 1981 are still valid
1986.  Almost all of the surgeons who were interviewed in the
OIG inspection indicated that their CABG surgical fees were
originally based on the charges that were being made by other
surgeons who were performing the         operation.
                                               None of the
surgeons indicated that any criteria were used other than the
charges of others or charges that they were making for what
they deemed to be " comparable " surgeries when they began their
CABG surgery practice. Although some of the surgeons
indicated that their Medicare reimbursement was too low, none
of them had ever reduced their charge to Medicare to reflect
any economies, efficiencies, reduced risk or responsibility.
Some of the surgeons complained about the high charges of
their peers and the unfairness of Medicare recogni zing the
inflated charges of new surgeons wi thout adjusting their
allowances accordingly. Virtually all of the physicians that
were interviewed voiced some dissatisfaction with the
reasonable charge system.
More Dollars for More Grafts?


Medicare reasonable charge determinations for CABG surgery are
based upon the HCFA Common Procedure Coding System (HCPCS).
The HCPCS codes for CABG surgery are the same as those in the
 Physicians ' Current Procedural Terminology " (CPT) coding
system that was developed by the American Medical Association.
There are six codes for coronary artery bypass surgery where
the patient' s leg vein and/or mammary artery are used for the
grafts.  The distinguishing factor among the six codes is the
number of graftings performed during surgery:

                    CPT (HCPCS) CABG SURGERY CODES
    33510        Coronary artery bypass, autogenous graft,     e.g.,
                  saphenous vein or internal mammary artery;
                  single graft
    33511         two coronary grafts

    33512         three coronary grafts

    33513         four coronary grafts

    33514         five coronary grafts

    33516         six or more coronary grafts

One of these six codes was billed for each of the 204 Medicare
beneficiaries in the inspection sample.
Before HCFA mandated that carriers use CPT codes, many
carriers relied on the California Relative Value Studies
(CRVS) of 1964, 1969 and 1974 to code and pay        claims.
                                                       The
1974 CRVS lists three codes for CABG surgery involving the
saphenous vein or mammary artery:

    33510        single artery

    33515        two coronary arteries

    33518        three (or more) coronary   arteries

These codes were assigned unit values of 25, 32 and 38,
respectively .
The three codes that were added when HCPCS was implemented have
resulted in increased CABG expenditures by most Medicare
carr iers. Only 8 of the 38 carr iers surveyed restr     ict
payments to a given amount if the surgery involves 3 or more
arteries.  One of these actually allows the same amount if two
or more arter    ies are involved.
                                 An addi tional six carriers
make no pricing distinction among four or more arteries.
The thoracic surgeons who were interviewed agree that each
addi tional graft takes approximately IO to 20 minutes. The OIG
analyzed carrier pricing for the six codes and found that for
each additional graft a surgeon can receive as much as $2, 297
or as little as $3 depending on the prevailing charge in a
gi ven locali ty. Five carriers actually pay less for more
grafts.   In one large. Midwestern state, the carrier allows
$822 less for four grafts than for       three.
                                             For these five
carr iers, the time for addi tional grafts does not yield
addi tional compensation because reasonable charge
determinations merely represent the charge data accumulated
for each code wi thout regard to the other codes.
Over 60 percent of the surgeons who were interviewed agree
that the same payment for three or more grafts is appropriate.
Of those thoracic surgeons, 50 percent do not object to the
same payment for all CABG surgeries regardless of the number of
grafts involved.  Some of the surgeons believe that allowing
higher payments for additional grafts encourages abuse by
providing economic incentives for unscrupulous practitioners.
They also stated that more than four grafts may be harmful to
the patient.
Prevai1ing Charges Vary Significant1y Throughout the Nation


The average number of grafts currently performed in bypass
surgery is between three and             four.
                                     Carrier prevailing charges
for CPT code 33512 (three grafts) for fiscal years 1984 and
1985 range from $2, 487 in Colorado to $6, 000 in New York. The
highest prevailing charge regardless of the number of grafts
is in New Jersey where the prevailing charge for four grafts
or more is $6, 020   Conversely, the maximum prevailing charge
regardless of the number of grafts in Rhode Island is $2, 587.

The Metropolitan Life Insurance Company found that the highest

surgeons ' charges were in California, Flor ida and Texas. The
OIG found that the highest prevailing charges are in southern
California, Texas, New Jersey and Metropolitan New        These        York.
locations exceeded the mean charge for all of the highest
carrier prevailings by approximately 30 percent.
For comparable locations, the di fference in the maximum
prevai ling charge is subs tan          tial.
                                    For example, the highest
prevailing charge in northern California is $1, 466 less than
it is in southern California. The highest prevailing charge

in Massachusetts is $2, 477 less than it is in New Jersey.


               CABG SURGERY PREVAILING CHARGES (ALL CABG CODES)




                                                                        MASS. 3543 2843
                                                                        CONN. 4750 3003
                                                                         N.J. 6020 4300

                                                                          RJ. 2587 1779
                                                                          C.  5775 3439
                                                                         MD. 5715 2218




                                           Highest PrevaiRng Charge

                                           Lowest  P'e al/Jg Charge

Medicare Reasonable Charges Significantly Exceed prudent Buyer

Costs
While Medicare continues to reimburse surgeons based on   its
reasonable . charge criteria, other purchasers of health care
have been able tb negotiate reductions of their " usual and
customary " payments. When the revised payment is in the form
of an all-inclusive package price, it is difficult to

determine the discounted price for the hospi tal and physician

components. The agreement is between the hospital or medical
center and the physician group whose services are included in

the package arrangement. The purchaser of the package 

not aware of the distribution of the reimbursement between the
hospi tal and phys ician group. In some cases, however, an HMO
or insurance company has negotiated a discount price for the

physician group only.
The most common discount arrangement involves a percentage 

 usual and customary " or fee- for- service charges. Frequently,
the agreement will provide the surgeon with 80 percent of his
usual fee. In some agreements, the surgeon is expected to
absorb the costs of assistant surgeons or physician assistants
in the discounted payment. These arrangements are often the
first step towards the development of all- inclusive package

pr ices. Al though the OIG did not determine the exact number
of these agreements that have been negotiated, several of the
physicians who were interviewed discussed their provisions.
In southern Cali fornia, one surg i cal group has agreed to
accept $5, 000 (80 percent of its usual and customary) as
payment for the services of the surgeon and any assistant
surgeons or trained technicians who participate in the CABG
surgery.   For Medicare, those same services will cost $l, 681
more than the discounted pr ice:
                                    Bill ed   Allowed      Paid
   Surgeon                         $6, 200    $5, 966     $4, 773
   Assistant surgeon                   240        193         954
   Second assistant surgeon         I, 240        193         954
                                   $ 8, 680   $8, 352     $6, 681
Several HMOs have negotiated similar agreements and at least
one Medicare carrier, in a pilot project for its private
business, has begun paying a " wrap price.   The " wrap price
represents a single payment for all the physicians and
technicians who would normally submit separate   bills. It
the carrier $1, 100 per CABG surgery. Based on the carrier
                                                            saves
calculated savings, consolidating payments for the surgeon,
anesthesiologist and assistant surgeons could save Medicare
over $69 million each year for 63, 000 surgeries.
As these agreements proliferate around the country, the
disparity between what Medicare pays and what other purchasers
pay will become more pronounced.
INCONSISTENT CARRIER UTILIZATION POLICIES
CAN BE INEQUITABLE AND COSTLY

Because CABG surgery is so costly, it is essential that new
economies and efficiencies become institutionalized as quickly
as possible.   As the economies are implemented, HCFA and its
carr iers must monitor claims to assure that providers do not
diminish the impact of the savings by billing and being paid
for unnecessary or inappropriate items and services.
The Health Care Financing Administration has not mandated any
national utilization controls for CABG         surgery.
                                                   Each carrier,
in consort wi th its own medical consultants and medical policy
comri ttee, must develop its screens. While some carr iers have
diligently formulated controls, others have chosen not to
place any limitations on the CABG providers in their service
area.   The need for carr ier screens for CABG surgery would be
virtually eliminated if payments were packaged rather than
paid according to the reasonable charge concept.

CABG Surgica1 Fees Are Sometimes Fragmented


Several claims submi tted to Blue Shield of California for 1986
CABG surgeries were identified by the plan s medical director
for review.   The surgeons who had submi tted the claims had
included separate charges for items that the medical director
believed should have been included in the global fee for the
surgery.  The claims included charges for the following items:
             moni tor ing   lines
             decompression catheters

             intraaortic balloons

             pacemaker electrodes

             drainage tubes

             resuscitation measures

Addi tional charges were also being submi tted for re- operations
due to post- operative thrombosis or hemorrhage.

The BSC medical policy committee determined that these items
are part of the surgeon s global fee and should not be paid.
Computerized pre- payment screens have been installed to
automatically screen and deny these services when they are
billed wi th any of the HCPCS CABG surgery codes. By doing
this, BSC has closed a " loophole " and avoided paying these
 fragmented" bypass surgery items.

Generally, carriers do not agree on which components of CABG
surgery are included in the global          fee.
                                          Also, their payment
policies on re- operations are inconsistent. Only 6 of the
carriers that responded to the inspection query indicated that
all of the listed items are included in the surg ical fee and
wi II not be paid if they are billed separately.
While almost 50 percent of the carriers will pay separate

charges for use of an intraaortic balloon (a procedure used if
the heart does not easily resume function when the heart-lung

machine . is disconnected), only 10 percent recogni ze separate
charges for the insertion of catheters. Even wi thin the same
State, carrier policies may differ. For example, BSC now

disallows all of the listed items, but Transamerica-Occidenta1

in Los Angeles will pay separately for the balloon and

pacemaker electrodes. In Missour i, one carrier pays for the

balloon only while the other pays for the balloon and

resusci tation.


Only two of the carriers routinely deny separate charges for

re- operations because they consider them part of the global
surg ical  fee. Some carr iers require that all claims for
re- operations be reviewed by their medical consultants.   Others
pay the claim at a reduced rate, or pay the claim at a reduced
rate if the re- operation was wi thin 24, 48 or 72 hours of the
surgery.
The fragmentation of CABG surgery was not apparent in the
claims sample for the    inspection.
                                   However, the problem was
identified by the northern California Medicare carrier in
claims that were submitted during   1986.Since the inspection
sample claims were for fiscal years 1984 and 1985, it is

possible that fragmentation will become a costly problem 

HCFA does not establish national policy guidelines and

utilization screens.


Payments for Assistant Surgeons at CABG Surgery


Coronary bypass surgery is a complex procedure that requires a

large surg  ical team.The ski II of the surgeon -in - charge must
be complemented by the skills of the anesthesiologist, the
nurses, the assistant surgeon and the pump perfusionist to
assure a successful outcome.
The OIG found that the CABG surgical team was composed of a
dozen or more persons in some medical  centers:   the primary
surgeon, two assistant surgeons, two pump perfusionists, an
anesthesio10g ist, a nurse anesthetist, two circulating nurses,
two scrub nurses, an orderly and, in teaching hospi tals, a
surg ical  resident. In other institutions, the team had eight
members: the primary surgeon, one assistant surgeon, a
physician assistant, one pump perfusionist, an
anesthesiolog ist, one circulating nurse, one scrub nurse and
an orderly. In most si tuations, the non- physician team
members and the residents are salaried hospi tal employees and
do not submi t claims for reimbursement to Medicare carr iers.
Separate Part B bills are usually submi tted by the surgeon
the anesthesiolog ist and the assistant surgeons.
If two assistant surgeons participate in the operation, one

usually harvests (removes) the saphenous vein while the other
assists the primary surgeon in the chest cavity. The assistant
who harvests the vein works on the leg from " skin to skin.
Some of the surgeons who were interviewed do not routinely use
a second surgeon to perform this  function. They have, instead,
hired and trained physician assistants. In one major CABG
center that was visited, two physician assistants are used
instead of any assistant surgeons. No Medicare charge is
generated for the physician assistants who are the salaried

employees of the thoracic surgeon or surgery group.

All of the surgeons who were interviewed agree that the vein
harvesting can be done just as efficiently and competently by
a physician assistant or a trained nurse as by another
surgeon.  The surgeons also agree that only one assistant
surgeon is required for all but the most complex CABG
surgeries.  Although some surgeons think that Medicare should
pay for physician assistants, most do not object to Medicare
limiting payment to one assistant surgeon.
Medicare payment policy precludes payment for assistant
surgeons at CABG surgery when the hospital has a residency
program in cardiovascular or thoracic  surgery.   The OIG found
that at least seven carriers have not implemented this policy.
However, more than 50 percent of the carr iers that were
surveyed will routinely pay for only one assistant surgeon.
Except for three carriers, all the rest limi t the payment to
two assistant surgeons. The three exceptions have formulated
an alternative policy:    The total amount that they pay for all
assistant surgeons cannot exceed 20 percent of the primary
surgeon s reasonable charge. Twenty to 25 percent of the
primary surgeon s fee is the usual amount that is billed and
paid for one assistant surgeon.    Carriers that have adopted
this policy have effectively reduced, or capped, program
expendi tures wi thout addressing the issue of how many
assistants are needed in the operating room.
                     RECOMMENDATIONS
RECOMMENDATION #1 - QUALITY OF CARE
FINDING    Hospitals and surgical teams that specialize in CABG
surgery and perform more than 200 surgeries per year have
better outcomes in terms of mortality rates, lengths of stay
and charges. Contracting wi th selected high volume faci Ii ties
would assure that Medicare benef iciar ies receive the highest
qua1i ty of care in the most efficient and economical settings.

RECOMMENDATION   HCFA should develop quality of care criteria
for CABG surgery providers so that selective contracts can be
negotiated.
IMPACT     Medicare beneficiaries would receive the highest
quali ty care in the most eff icient and economical settings.
HCFA RESPONSE    HCFA, in collaboration wi th eight PROs, 

collecting clinical data on CABG cases and will explore the

possibility of developing quality of care criteria specific to

CABG providers.



RECOMMENDATION #2 - SELECTIVE CONTRACTING
FINDING   Medicare payments for CABG surgery are based on
hospital DRG rates and reasonable charge determinations for
surgical and medical expenses. This method of reimbursement
does not take advantage of the substantial program and
administrative savings that can be realized through selective

contracting.
RECOMMENDATION   HCFA should negotiate all-inclusive package
payment prices with selected surgeons and medical centers for
providing CABG surgery to Medicare beneficiaries. Since
legislation is required, a demonstration project should be
considered to determine the most efficient and cost- effective
method for contracting. The " preferred provider n concept
could be one way of encouraging beneficiaries to use the

contract provider without restricting the beneficiary

freedom to use the provider of his choice.


IMPACT    Over $192 million could be saved if Medicare
implemented a selective contracting program that paid a fixed

pr ice of $13, 800 for CABG surgeries involving hospital stays
of up to 12 days. The Texas Heart Institute proposed this
price; however, some HMOs have negotiated lower prices with

other medical centers and the estimated cost savings would be

considerably greater if HCFA were able " to take advantage of
these lower prices. Package prices also eliminate the need

for pre- payment and post- payment utilization screens and the

administrative costs associated with them.
HCFA RESPONSE:     A demonstration project wi II   be considered.
                                           .,




RECOMMENDATION #3 - MEDICAL NECESSITY
FINDING   There is considerable controversy surrounding the
medical necessity of coronary bypass surgery for certain
patients.
RECOMMENDATION   PROs should be required to review the medical
necessity and appropriateness of elective CABG surgeries.
IMPACT      Unnecessary surgeries could be avoided and patient
and program savings could be reali zed.
HCFA RESPONSE   CABG will be included on the list of mandatory

review procedures for PROs.





RECOMMENDATION #4 - PRIMARY SURGEON PAYMENTS
FINDING   Medicare reasonable charge allowances for the
primary surgeon are often inconsistent and inequi table. The
allowances do not consider the economies of the marketplace.
At least one insurer has been able to " wrap " the physicians
payments so that separate fees are not paid to assistant
surgeons and anesthesiologists.

RECOMMENDATION   Limitations should be placed on reasonable
charges for the primary surgeon I s fee for CABG surgery. The
limitations should be determined by applying the guidelines of
the Omibus Budget Reconciliation Act of         1986.
                                                  Consideration
should be given to negotiating . wrap " prices for Part B
services.
IMPACT    At least $5 million would be saved if payments for
the pr imary surgeon in CABG surgery were limited to the
current payment for three grafts. Considerably more may be
saved if the limi tation is determined by applying the cr iter ia
in the lamnibus Budget Reconciliation Act of      1986.
                                                     Addi tional
savings would be reali zed if the payments for all Part B
physicians ' services during CABG surgery were consolidated into
one payment and separate payments for assistant surgeons and
anesthesiologists were eliminated. Based on the experience of
ope carrier in a pilot project, $1, 100 per case would be
saved.   For Medicare, this would amount to $69. 3 million
annually.
HCFA RESPONSE:    HCFA tentatively supports limi ting allowances
and wi II conduct  additional data evaluation before making a
final determination.

RECOMMENDATION #5 - HCPCS CODES
FINDING   HCPCS added three codes to describe CABG surgery.
The additional codes have had an inflationary effect because
most carriers have presumed that the addi tional codes, which
distinguish among four, five and six arteries, add value to
the surgery.  The existence of multiple codes may encourage
abuse by rewarding additional grafts that may not be necessary.

RECOMMENDATION   HCPCS codes for CABG surgery should be
consolidated so that no distinction is made based on the
number of grafts that take place during the surgery.
IMPACT    Although no specific savings projections have been
calculated for this recommendation, savings would be
considerable since the recommendation would eliminate codes
that are considered to warrant addi tional payments.
HCFA RESPONSE:     HCFA concurs wi th this recommendation.




RECOMMENDATION #6 - UTILIZATION CONTROL SCREENS

FINDING   This inspection found wide variations in carrier
policies regarding utilization control screens for CABG
surgery.  HCFA has not mandated any national screens so each
carrier must develop its      own.
                                There is no uniformity
concerning payment for assistant surgeons, fragmentation of
the global fee and post- surgical complications.

RECOMMENDATION      National utilization guidelines should be
established to eliminate inconsistent carrier policies.
Consideration should be given to limiting the number of
assistant surgeons that Medicare will pay for in CABG surgery
or paying only one payment of 20 or 25 percent for assistant
surgeons regardless of the number that participate in the
surgery. Utilization screens should be mandated to prevent
payments for fragmented services and post- surgical
complications wi thin a specified time.

IMPACT   Estimated annual savings of at least $4 million would
result if uniform guidelines were implemented concerning
payments for assistant surgeons. Additional savings could be
realized if uniform utilization screens were mandated
concerning fragmentation and post- surg       ical   complications.
HCFA RESPONSE      HCFA will conduct further investigation into

these areas.
                                                       ...




Comments were solici ted and received from the Society of
Thoracic Surgeons. The Society agreed that the preferred
provider option should improve quality of care and control
costs.  The Society also agreed with our recommendations
concerning adjusting reasonable charges for CABG surgeons and
preventing fragmentation of the global    fee.According to the
letter from the Society, " Regional variations may have been
required to launch the Medicare program, but there is no
longer justification for such regional variations
uncoupling of fees is professionally inappropriate.
The Society did not agree wi thour recommendation regarding
PRO review because  ... many of the larger units would have
their own control mechanisms in place and these would
undoubtedly be superior to an external PRO.




                         Estimated Savings

     Recommenda t i on                        Annual Savings
     Selective Contracting                $192. a    Million
     Pay Single Professional Fee             69.     Million
     Limi t Surgeon s Fee to Three Grafts            Million
     Pay Only One Assistant Surgeon           4. a   Million
                                                                  APPENDIX A


                    DATA BASE AND METHODOLOGY


Data Base

Data from the Medicare carr iersand intermediaries was
compiled into a file, which ultimately reflected

identification data and Part A and Part B utilization data
relative to the hospital stay, for each of the 204
beneficiaries in the sample. This data base was used          in all
micro- computer analyses.
The data base is incomplete in 47 cases with respect to the

Part B claims data. Of these, 32 were bypass cases where

the surgery took place in FY 1984, and the carriers were
unable to reconstruct benef ic iary claim histories that far
the past. In another two cases in FY 1984 and FY 1985, the
beneficiaries were not entitled to Medicare Part B benefits at

the time of the surgery; therefore, no Part B information
exists.  In the remaining 13 cases, 3 of which occurred in
FY 1984, carriers could not provide any Part B information; it

is possible that one carrier processed the CABG claims after
the Part B deductible had been met through another carrier.
If this happened, claims data from the carrier that processed

the CABG claims would not appear on the Health Insurance

Printout (HIPO).
Benef iciar ies    the    sample break ou t    follows:
                          FY 1984      FY 1985        Total
    DRG 106

    DRG 107                                            122
        Subtotal            107                        204
    Missing Part B


    Remainder                                         157
Medicare Ex   enditures
By projecting the sampled mean reimbursement under Part A for
CABG, the OIG estimates that total Part A expenditures for these
procedures were between $1. 007 billion and $1. 128 billion in
1985 (at the 95 percent confidence      interval).
                                                 According to
figures published by HCFA in July 1986, the total Part A
reimbursement for CABG was $1. 013 billion. Since the total
published by HCFA falls wi thin the OIG 95 percent confidence
interval, it is reasonable to apply the same methodology to
estimate the Part B total.
Methodo1ogy for Savings Projections


   Comparison of Medicare costs to contract prices under

    selecti ve contracting
   It is estimated that $192 million could be saved through
    se1ecti ve contracting with a 95percent confidence
   interval between $188 million and $197 million. To arrive
   at this estimate, the Part A reimbursement and the total
   Part B allowed charges were added for each sample
   benef iciary that had a 6 to 12-day hospital     stay.
                                                       The THI
   contract price of $13, 800 was compared to the Medicare
   figure and the savings projection was based on an inverse
   of the sampling fraction to the universe of Medicare CABG
   benef iciar ies

   This projection is conservative because:


         As much as 25 percent of the FY 1985 Part A data may

         have been missing from the universe. The sample was

         selected from the Bill History file as updated

         through December    31, 1985. In prior
                                              studies
         conducted by the OIG, the average lag in Part A bi
         processing (the length of time from the date of

         service to final acceptance by HCFA) was determined

         to be approximately 15 weeks. Although the FY 1985
         data is incomplete, more complete FY 1984 Part A data

         could not be used because some carriers could not

         locate the 1984 Part B information.
         There are no New York City hospital discharges in the
         sample.   This is primarily due to an extraordinary
         lag in Part A processing of bills from intermediary
         00 30B. (OIG has determined that the average lag
         Part A bi II processing for this intermediary is over
         31 weeks.   This intermediary typically_ accounts for
         about 5 percent of total Part A hospital bi llings,
         or about 700, 000   discharges annually.
         There are other methods of projecting the potential

         savings from this type of    sample.However, for this
         inspection, the most conservative approach, simply

         multiplying the projection by the inverse of the

         sampling factor (0. 2 percent, or 500), was selected.
   Calculation of savings that would accrue from limiting
   the pr imary surqeon ' s reasonable charge
   The projected savings for this recommendation is $5
   mi llion per year, plus or minus $675, 000 for a 95 percent
   confidence interval. The projection is limited to FY 1985
   data . because the figures must be annuali zed (the sample
   represents the activity for 2 years), and the FY 1984
   Part B data is incomplete.
Only 34 cases were included in this projection. The

remaining 63 cases were excluded because of incomplete

Part B data or because the procedure code was for fewer

than 4 grafts.
The savings estimated for this recommendation are

conservative for similar reasons to those given for the

projected savings for selective contracting.


Calculation of projected savings if assistant 
                surgeons
payments were capped

The number of cases in the sample that fit the criteria
are small and the projected annual savings of $4. 4 million
for the recommendation are                        tentative.
                                       Only 10 cases from
the sample were used to calculate the savings because they
were the only cases that had separate payments for more
than I assistant surgeon in the 1985 portion of the

sample.
                                                             Reprinted frm the JAMA Journal of the American Medical Association
                                                                                    Februery    13, 1987,Volume 257
                                                                                                                                                      APPENDIX B
                                                                        Copyright      1987    American Medical Asociation



Original Contributions





Association of Volume With Outcome of

Coronary Artery Bypass Graft Surgery

Scheduled vs Nonscheduled Operations                                                                                             Errata: In Table I , column 2 (Tota
Jonathan A, Showstack , MPH; Kenneth E. Rosenfeld; Deborah W. Garniek , SeD;                                                     Group), the   s are positive for the thee
Harold S. Luft , PhD: Ralph W. Schaffarziek , MD; Jinnet Fowles, PhD                                                             hospital surgical volume groups and fOT
                                                                                                                                 the constat (not negative        as prited).

Empirical evidence suggests that mortality rates for coronary artery bypass graft                                               creased risk of mortality for patients
(CABG) surgery are lower in hospitals that perform a higher volume of the                                                       undergoing CABG         10
                                                                                                                                                             Clinical risk fac­
procedure. In recent years, the criteria for CABG surgery have been expanded to                                                 tors found to be associated with poor
include patients with a wide variety of co-morbidities. To address the question of                                              surgical outcome include the presence
whether the volume-outcome relationship continues to exist for this new group of                                                and severity of angina 10 and the        pres­
patients, discharge abstracts for 18986 CABG operations at 77 hospitals in                                                      ence of heart failure 10 although diabe­
California in 1983 were analyzed using multiple-regression techniques. Higher-                                                  tes 7 hypertnsion 7 and previous acute
                                                                                                                                myocardial infarction 7 10 have not been
volume hospitals had lower in- hospital mortaliy (adjusted for case mix); this
                                                                                                                                found to be significantly associated with
effect was greatest in patients who might be characterized as having " non­                                                    in- hospital death. 10 Prority of sur­
scheduled" CABG surgery. Higher-volume hospitals also had shorter average                                                      gery (emergency or urgent rather than
postoperative lengths of stay and fewer patients with extremely long stays. The                                                electiveY.9 and additional surgical pro­
results of this study suggest that the greatest improvement in average outcomes                                                cedures (eg, valve replacement)' are

for CABG surgery would result from the closure of low-volume surgery units.                                                    associated with higher mortality, while

                                                                                                   (lAMA 1987;257:785789)      the number of coronary artery grafts
                                                                                                                               inserted appears to be unrelated to out­
                                                                                                                               come.
                                                                                                                                  In recent years , criteria for       CABG
EMPIRICAL evidence suggests that                                  1975). If higher               volume is associated          surgery appear to have been expanded
for many surgical procedurs , mortality                           with lower mortality and , potentially,                      to allow more severely il patients to
rates are lower in hospitals performing                           lower costs because of shorter lengths of                    undergo surgery. Previously reported
a higher volume of a given procedure.                             stay, then directing patients to higher-                     empiric evidence of the association be­
This association between volume of sur-                           volume hospitals may lead to both bet­                       tween the volume of CABG surgery and
gery at a        hospital and outcome has                         ter clinical outcomes and lower per-case                     outcome , however, was generally drawn
received increasing attention both be-                            costs. Recognizing the need for open                         from the experience of patients who had
cause it is measurable and because it                             heart surgery teams to perform a mini-                       surgery in the 1970s ,   and these studies
may be amenable to policy intervention.                           mum number of operations , the Ameri-                        accounted for relatively few patient
Luft et all reported substantially higher                         can College of Surgeons has recom­                           characteristics. Previous studies also
procedure-specific death rates in hospi-                          mended that each team perform at least                       were limited to self-selected hospitals or
tals performng fewer than 200 coronar                             150 operations per year.                                     samples of Medicare patients and , thus
artery bypass graft (CABG) operations                               A varety of patient and hospital char-                     may not be generalizable.
annually compared with hospitals that                             acteristics (other than the volume of                           This study extends previous empiric

performed 200 or more procedures                                  surgery at the operative hospital) may                       work by addressing two key questions:
(5. 7% mortality vs 3.4% for 1974 to                              be associated with the outcome of sur­                       First , has the volume-outcome rela­
                                                                  gery. For CABG surgery, a significant                        tionship for CABG surgery continued to
                                                                  association between volume and out-                          exist in recent years , particularly when
  From the Institute
                   for   Health Policy Studies , School of        come remains when patient characteris­                       data are drawn from hospitals and pa­
Medicine , University of California at San Francisco              tics such as age , single or multiple diag­                  tients in a broad geographic area? Sec­
(Mssrs Showstack and Rosenfeld and Drs Garnick and                noses , and sex are accounted for, as well
Luft); Blue Shield of California ,                                                                                             ond , is the relationship between volume
                                     San Francisco (Dr
Schatfarzick); and Health Services Research Center                as when hospital-specific characteris-                       and outcome similar for all types of
Park- Nicollet Medical Foundation , St Louis Park , Minn          tics (eg, hospital size             , teaching status        patients , or does it var according to
(Dr Fowles).                                                     and geographic location) are consid-
  Reprint requests to Institute for Health Policy Studies
                                                                                                                               clinical and other patient characteris­
University of California at San Francisco , 1326 Third           ered. Advancing age and female sex are                        tics , such as the emergency natur of
Ave , San Francisco, CA 94143 (Mr Showstack).                    almost uniformly associated with in-                          the procedure?


JAMA ,   Feb 13, 1987- VoI257 , No.                                                                                          Coronary Artery Bypass- Showstack et al      785
                                                    :j":      " "




MATERIALS AND METHODS                             Table 1,        Asociation of Paient Characteristics and Hospital Surgical Volume With In- Hospital Death Rate
                                                  for Coronary Artery Bypass Graft Surgery, California. 1983
Data Sources
 The source of data for this analysis
was individual patient discharge ab­                                                                Total Group                 Scheuled" .            Nonscheduledt
stracts for 1983 obtained from the Cali­          Patient characteristics
forna Health     Facilties Commission               Sex (male-                                      0207:!0, 0032:          - 0, 0207:!    0,0037:j   - 0. 0182:!   0.0056
(CHFC). Each discharge abstract con­                Age, y
tained a variety of demographic                       ..50                                       - 0. 0378:! 0.0046:j       - 0. 0267:! 0.0049:j      - 0.0504:!    0.00901
clinical , and hospitalization data that              50-6                                            0227:!0, 0031:j       - 0, 011 O:! 0, 0034      - 0, 0365:! 0. 0056:j
characteried a specifc hospitalzation.                 ;,75                                          0301 :! 0, 0055*           0292:! 0,   007:j         0265:! 0. 002:j
The patient's principal and secondar                Ethnic group (white-1)                          0120:!0.                    0Ioo:!0. 004311       -0. QI29:!0. 0076
diagnoses , and the principal and secon­            Presence 01
                                                                                                     0602:! 0,0039:j             0611 :!0, 0051:j                     002:j
dar procedures performed on the pa­                   Acute myordial infarction (yes-
                                                      Congeslive heart failure (yes-                 0964:!0, 0071:j             0891 :!0,0097:j
                                                                                                                                                          0536:! 0.

                                                                                                                                                          0937:! 0,011 O:j
tient durng the hospital stay, were clas-
sified according to the         Inteional             Angina (yes-                                   0123:!0, 0030:j
                                                                                                     0066:!0, 0026
                                                                                                                             - 0. 0079:!   0,003211

                                                                                                                                 005:! 0, 0035
                                                                                                                                                          0161 :!0.005

                                                                                                                                                      - 0. 0407:! 0.0057:j
Classifation of Diseases ,        Ninth Rev­        Cardiac caheterization (yes-

                                                    Coronary angioplas1y (yes-                       0252:! 0,0069:j              0119:!0, 0075            0429:!0. 0133
sion ,    Clinical Modifation (lCD-
                                                    Oter discarge (yes-                              0495:!0. 0052:j         - 0. 0346 :!0, 0055:j    - 0,0768:!    0, 01 04:j
CM).      discharges with a primar or
         U All
                                                  Hospital surgical volume
secondar  ICD- CM procedure code of                 20- 100 (ye-                                 -t 0. 0207:! 0,006              0076:! 0.0062            0304:!0, 0117
36. through 36. 19 ("bypass anastomosis             101- 200 (yes-                               -I 0, 0077:! 0,0039             0052:! 0,0045            0077:! 0,0070
for hear revacularition           ) were sepa­      201- 350 (yes-                               t 0,0096:! 0.0030               0073:! 0.003211          0125:! 0.005911
rated into a data file that included 20 093       Constant                                       r- 0, 0686:! 0,0053:j           0515:! 0.0056:j          1094:!0. 0104:j
caes.                                             AdjUs1ed R2                                             042                         033
   Frequency distributions were com­                                                                   16966                       11497                     7489
puted for each vaable in the data set.
Several factors that were thought to be              Surgery on first or secnd day after admission.
importnt to the subsequent data analy­              tSurgery on day 01 admission or three or more days after admission.

                                                           001,

sis were noted in these frequency distri­            P":, OI,

butions. Of the patients who had CABG               IIP":. 05.

surgery, 1077 also had a hear valve
replacement during the same hospi­
talization. Because of the likely differ­         prepared for a scheduled operation than                        ported below are from                analyses that
ent outcome of these patients , we de­            for a nonscheduled operation.                                  used day of surgery as the criterion for
cided to exclude them fI;om subsequent              The CHFC data did not list whether                           defiing scheduled or nonscheduled sur-
analyses. In addition ,       15 hospitals that   an operation wa scheduled , and we                             gery. (Other analyses that used a vari­
reportd only one          CABG operation dur­     were unable to go directly to a patient'                       ety of other characteriations of the
ing 1983 , one hospital that reportd only         medical record to determine the reason                         nature of the admission , including
five operations , and two hospitals that          for the operative                admission. There              whether the admission was emergency,
had not yet reportd their data to the             were ,      however, data            available that            urgent ,      or elective        , produced results
CHFC at the time of this analysis were            allowed inference about the emergency                          entirely consistent with the results of
excluded. This left a total of 18996
             nature of the             CABG procedure. For                  the analyses reportd below                  that used
patients with CABG surgery (and no                example , the number of days after the                         day of surgery as the criterion.
valve replacement) from 77 hospitals.             admission that the operation took place
                                                  was recorded. It might be hypothesized                         Data Analysis
                                                  that " scheduled" operations ar likely                               The methods used to analyze the data
Scheduled vs                                      take place on the fist or second day                           consisted of computing frequency dis­
Nonscheduled Operations                           after admission      with emergency                            tributions , simple bivariate correlation
       Previous studies of the relation be­       CABG operations taking place on the                            analyses to determne the relationships
tween volume of CABG surgery and in-              day of admission. Patients who have a                          between individual independent vaa-
hospital outcome did not distinguish              CABG operation on the third or subse-                          bles , and regression equations to assess
between outcomes for different types of           quent day after admission also seem                            the independent associations of patient
patients. Because of recent studies               likely to be those who are at high risk                        and hospital characteristics with the
showing that new categories of patients           because they were likely admitted for                          primary outcomes of interest: surval
may now be receiving CABG surgery,                another condition and/or deteriorated                          at the time of discharge and post-
we hypothesized that the     volume-out­          to the point of needing a CABG opera-                          operative length of stay. Two units of
come relationship might be different for          tion. Also recorded was the "reason for                        analysis , patients and hospitals , are
higher- risk patients , such as patients          admission " which was coded according                          possible with this data set. Data re-
admitted for an acute myocadial infarc­           to whether the admission was " emer-                           portd below          are from analyses in which
tion. 12 There could be a varety of rea­          gency, urgent " or " elective." While                          the patient was the unit of analysis;
sons for a different volume-outcome ef­           the reason for admission might seem to                         when the hospital was defined as the
fect for " scheduled" compared with               be a good characterization of the con-                         unit of analysis , results were similar to
  nonscheduled" operations. For exam­             cept that we were tryng to assess , it is                      results of analyses of patient- level data.
 ple , a patient who          receives a non­     potentially biased: a medical record                           With the patient as the unit of ana1ysis
 scheduled CABG operation may be                  coder might be more likely to record                           the final regression equations consisted
 sicker and more acutely il than one who           emergency" or " urgent" on the dis-                           of 18986 cases (ten cases were omitted
 receives a scheduled operation. Also , a          charge abstract if there was a poor                           because individual data items were
 hospital' s open hear surgery team is             outcome. Because the day of surgery is                        missing).
 much more likely to be on hand and                an objective measure ,              the results re-                 Two primar 
            dependnt variables
 786       JAMA, Feb 13, 1987- VoI257 , NO.                                                                              Coronary Artery Bypass- Showstack et al
 Table 2.        Distribution of Patients and Hospitals   Table 3.   Characteristics of Patient Population
 According to Hospital Volume of Coronary Artery
 Bypass Graft Surgery, California, 1983                                                                                  Total             Scheduled                 Nonscheduled

                                                                                                                        Group             Operations t                Operations:!

       No. 01                  % 01              % 01     Sex, % M                                                        77,                    BOA                     72,
 Operations                  Hospitals         Patients   Mean age, y                                                     61.2                   60A                     62.

    20- 100                                               Ethnicity, % W                                                  86,                    86.                     87.

   101- 200                                               % With diagnosis
   201-350                                                  Acute myocardial infarction
                                  14,                                            21.
         350                                                Congestive heart failure
                                                            Angina                                                        27.                    29,                     24.
                                                          % With procedure (during operative hospitalization)
                                                            Cardiac caheterization                                        42A                    22,                     72A
were analyzed: (1) discharge status (in­
                                                            Angioplasty
hospital death vs other type of dis­                      No, of patients                                               18986                   11505                    7491
charge), and (2) "poor outcome "                 (the
total of in- hospital         death and long post­           On all characteristics , except the percentage of patients who received angioplasty, scheduled patients were
operative length of stay (for survivors                                                                  (P-c. 001).

                                                          significantly diferent from nonscheduled patients


only, postoperative length of stay be­                      tSurgery on first or second day after admission.

                                                            :!Surgery on day of admission or three or more days after admission.

yond the 90th percentile for all patients
undergoing CABG surgery in the
state)). In- hospital mortality is a lim­                 regression equations that included all of                     Table 4. Adjusted' In- Hospital Deaths and Poor
ited , although easily measured , indica­                 the independent variables. An adjusted                        Outcomes According to Hospital Volume of Coro­
tor of poor quality. While objective mea­                 mean is an estimate based on the hypo­                        nary Artery Bypass Graft Surgery, California. 1983
sures of complications would be                           thetical situation that all (hospital vol­                                                    Mean %
desirable , discharge abstracts did not                   ume) groups had the same values                       on
indicate whether specific listed diag­                    each of the independent variables that                                          Total                           Non-
noses were present on admission or                        were entered into the regression equa­
                                                                                                                           No, of         Group Scheduledt             scheduled:!
                                                                                                                        Operations (N=18986) (N=11497)                  (N=7489)
developed after the procedure. There­
                    tion. (A complete . description of the                                      In- Hospital Deaths
fore , postoperative length of stay was
used as a proxy for complications that
                                                          process of adjustment was provided by
                                                          Cohen and Cohen. The. regression
                                                                                                                           20- 100
                                                                                                                          101- 200              9 2.

developed subsequent to the operation.
It can be argued that , after adjusting
for case mix , any hospital with a high
                                                          equations for discharge status are
                                                          shown in Table 1.) Analyses of the vol­
                                                          ume-outcome relationship that did not
                                                                                                                         201- 350
                                                                                                                            350                 1 2.
                                                                                                                                            Poor Outcomesf
                                                                                                                                                               911              911




rate of patients staying longer than 15
                  include any covariates , ie , that were                          20- 100        21.            16.              27.
days after the day of operation (the 90th                 analyses of variance with thevolume                             101- 200        15.            11,              20.
percentile postoperative length of stay)                  groups as the only independent varia­                           201- 350        11,8                            16.
has an unusually high rate of complica­                   bles , produced results similar to ,               al­                350       12.                             16,
tions.                                                    though slightly less sensitive statis­
                                                                                                                           Adjusted for sex , age, ethnic group, and presence of
   The                     included
               independnt variables                       tically than , the results produced in the                    acute myocardial infarction , congestive heart failure
in the analyses were the volume of                        full regression equations that included                       angina, cardiac catheterization , and coronary an­
CABG surgery at the operating hospi­                      the entire set of covariates.

                                                                                                                        gioplasty.
                                                                                                                          tSurgery on first or second day after admission.
tal , sex , age group, ethnic group (white                  The use of secondary data to address                          :jSurgery on day of admission or three or more days
vs other), presence of primary or secon­                  clinical questions presents certain po­                       after admission,
                                                                                                                            P-C 01 vs highest-lIlume group.
dary diagnostic codes of current acute                    tential problems , such as possible mis­                        IIP-c 05 vs highest-volume group.
myocardial infarction , congestive heart                  coding of subjective data. In this study,                         Poor outcome " is the sum of the in- hospital death
failure , and/or angina , and presence of                 data were derived from hospital dis­                          rate and the percentage of patients discharged alive

                                                                                                                        who had a postoperative length of stay beyond the 90th
primary or secondar       ICD- CM pro­                    charge abstracts , which are coded after                      percentile (15 days).

cedure codes of coronar catheteria­                       the fact by nonclinicians who are usually                       #P-c, 001   vs highest-volume group.


tion , and/or coronar angioplasty. The                    trained in abstracting medical records.

volume of surgery at the hospital was                     The primary questions of interest ad­
coded to include all CABG surgery,                        dressed in this study, however, depend                       tients' clinical records.
whether a valve replacement was per­                      on the accurate coding of data elements                         Reported below are analyses of the
formed or not (although patients who                      that are relatively objective , such as day                  total group of patients , and subgroups
had a concurrent valve replacement                        of surgery, length of stay, and discharge                    divided according to the day after ad­
were            from the analysis). For
           excludd                                        status. The addition of more subjective                      mission that their operation took place

purposes of interpretation , and because                  data elements to the analyses , such as                       (one or two days (" scheduled" ) vs any
of a potential nonlinear relationship be­                 presence of angina ,   made the results                       other day ("nonscheduled" )). The cen­
tween age and the dependent variables                     somewhat more sensitive statistically                         tral questions addressed by this analy­
age was entered into the regression                       but did not alter the inferences that one                     sis are whether the volume of CABG
equations as three dichotomous vara­                      might have drawn from unadjusted re­                         surgery at a hospital is associated with
bles plus one reference group: age less                   sults, Also , there is litte reason to
                      in- hospital death and postoperative
than 50 years , age 50 to 64 years , and                  believe that any of the data elements
                       length of stay and how this relationship
age over 74 years , with age 65 to 74                     studied was recorded systematically in                       differs for scheduled surgery compared
years as the reference group. A varable                   one way at higher-volume hospitals and                       with nonscheduled surgery.
was also included to characterize                         in another way at lower-volume hospi­

whether a patient was discharged to                       tals. Therefore , it seems reasonable to                      RESULTS
another facility, thus not having the                     assume that the results of this study                            The 22% of hospitals with over 350
 chance " to die in that hospitalization.                 would be confirmed if detailed primary                        operations in 1983 accounted for 44% of
   Adjusted means were calculated from                    data were collected directly from pa-                         all CABG surgery, while the 16% of
JAMA , Feb 13 ,        1987- VoI257 , NO.                                                                            Coronary Artery Bypass- Showstack et al                     787
                                                                                                        Table S,     Estimated Lives Savd if Patients at
                                                                                                        Lower- Volume Hospitals Had Outcomes Similar to
                                                                            Nonscheduled
                                                                                                        Those of Patients at Higher- Volume Hospitals
                                                                            Total
                                                                             Scheduled                                           Estlmated Llves Saved.
                                                                                                            Comparison                        Non-
                                                                                                              Group        Scheduledt scheduled:j Total
                                                                                                        Volume,, 1 00            1.7                      11.6
                                                                                                        Volume 101- 200                             1 6,
                                                                                                        Total (volume
                                                                                                           ,,200)                             13.         17.
                              01

                                                                                                            Compared with hospitals with a volume of more than
                                                                                                        200 operations per year,

                                                                                                          tSurgery on first or second day after admission,
                                                                                                          :jSurgery on day of admission or three or more days
                                                                                                        after admission,


                                                                                                        urgent" admission compared with a
                                                                                                        much lower volume-outcome associa­
                                                                                                        tion for patients with an "elective " ad­
                                                                                                        mission.
                  20- 1 00                   101. 200                  201- 350              ::350         To assess total " poor outcome " pa­
                                                                                                        tients were defied as having a poor
                                                                                                        outcome if they either died in the hospi­
                                              Hospital Surgical Volume,                                 tal or stayed beyond 15           days (the 90th
                                                  No. of Operations                                     percentile postoperative length of stay).
                                                                                                        A strong volume-outcome association
Adjusted death rate according to hospital surgical volume.            values shown are for difference
                                                                                                        was apparent ,         with the likelihood of
between lower-volume group and highest-volume group, NS indicates not significant                       poor outcome in the              highest-volume
                                                                                                        hospitals approximately two thirds of
hospitals with 100 or fewer operations                  preparation for the procedure , and are         that in the lowest-volume hospitals (Ta­
accounted for only 4% of all CABG                       less likely to have other current serious       ble 4). The magnitude of the volume-
surgery (Table 2). Almost half (44%) of                 medical conditions. All of the character­       outcome effect is by far largest in the
the hospitals studied had fewer than 200                istics listed in Table 3 ,    except ethnic     nonscheduled group, with 28% of non­
operations , accounting for one fith         of all     group, were found in subsequent analy­          scheduled patients in the lowest-volume
surgeries.                                              ses to be signficantly associated with
         group having a poor outcome.
   Table 3 shows the characteristics of                 the outcomes of interest.                           To understand better the implications
the total group of patients studied and of                The association of volume of surgery          of these data , several estimates were
patients whose operations were sched­                   with in-hospital death rates , adjusted         derived based on the 
               hypothetical
uled or nonscheduled. Most of the oper­                 for patient characteristics ,    is shown in    situation that patients in the lowest-

ations were performed on men , al­                      Table 4 and the Figure. For the entire          volume hospitals could be treated with
though there was a relatively high                      group of patients there was a fairly            the same effcacy and efficiency as pa­
number of women in the nonscheduled                     strong association of volume with ad­           tients in higher-volume hospitals. Of the
group. Almost 90% of patients were                      justed death rate. For patients who             18986 patients studied who received
white. Approximately one of seven pa­                   receivedCABG surgery in hospitals               CABG surgery in California in 1983 , 789
tients had a current acute myocardial                   performing 20 to 100        operations per      (approximately 4%) were operated on in
infarction , one of 25 patients had con­                year, the adjusted death rate was 0. 052        hospitals providing 100 or fewer     op­
gestive hear failure , one of four pa­                  fallng to 0. 039 , 0. 041 , and 0. 031 for      erations. Their adjusted death rate was
tients had angina , slightly fewer than                 patients who had surgery in hospitals             053 compared with an adjusted death
half of all patients had a coronar                      with volumes of 10l to 200 operations           rate of 0. 035 in hospitals with volumes
catheterization during the operative                    20l to 350 operations , and 351 or more         above 200 CABG operations a year.
hospitalization , and approximately one                 operations , respectively. When patients        Hypothetically, if the death rate for the
of 25 patients had a coronar angio­                     were divided according to whether they          . 789 patients was similar to the case
plasty performed durng the study hos­                   received scheduled or nonscheduled op­          mix-adjusted death rate for patients
pitalization (Table 3).                                 erations (as defined by their day of            who received their surgery in hospitals
   Patients undergoing nonscheduled
                    operation), there was a trend toward an         with volumes above 200 CABG opera­
surgery were much more likely to have                   association of volume with outcome in           tions a year, 12 lives might be saved (28%
had a current acute myocardial infarc­                  the group that was admitted for sched­          of deaths in the low-volume hospitals),
tion (22% vs 9%;    P-o. OOl) and/or con­               uled surgery, with a        much stronger       85% of which would be in the non­
gestive heart failure (6% vs 2%; P-o. 001)              association of volume with outcome oc­          scheduled group (Table 5). If the group
and/or a cardiac catheterization durng                  currng for patients who were admitted           of patients from the lower-volume hospi­
the study hospitalization (72% vs 23%;                  for nonscheduled surgery (Table 4).             tals is broadened to include patients
P-o. OOl). Thus , these data suggest that               Similar effects were seen when this             who had surgery in hospitals with            200 or

the characterization of scheduled vs
                   effect was modeled using other cate­            fewer    operations (approximately 20% of
nonscheduled is capturng a real effect;                 gorizations of scheduled vs        non­         total patients), the total number oflves
patients with scheduled operations are
                 scheduled operations. For example , a           saved might increase to 18 (about 11%               of
much more likely to have had their                      substantial association of volume with          deaths in hospitals with 200 or fewer
cardiac catheteriation prior to the op­                 adjusted in-hospital death rate was             operations), with 74%               in the non­
erative admission , implying earlier                    found for patients with an " emergency/         scheduled group. Thus , over half of the
788     JAMA ,   Feb 13, 1987- VoI257 , NO.                                                                     Coronary Artery Bypass- Showstack et al
                                                                                                                 , pp




 potential lives saved would be in non­                      an essential assumption. On the other                         40 miles of a high-volume hospital im­
 scheduled operations in the lowest-vol­                     hand , the comparison group for this                          plies that , at least in California , fuher
ume hospitals.                                               hypothetica analysis is the 80% of pa­                        regionalization of CABG surgery may
                                                             tients in hospitals with volumes greater                      be possible without major access prob­
COMMENT                                                      than 200 operations. If the comparson                         lems. Outcomes have to be linked
  The results of this study suggest that                     group had been , for example , patients                       closely to the clinical conditions of pa­
the association of volume of CABG sur­                       who received surgery in hospitals with                        tients and the medical appropriateness
gery with in- hospital survival found by                     yearly volumes of greater than 350
                           of referral prior to admission or trans­
other investigators               occurs for both            CABG operations , the savings might be                        ferrng a severely il patient in need of
scheduled and nonscheduled proce­                            even larger,       although a focus of concern                surgery to another (higher-volume)
dures , while the lifesaving potential of                    would then shift increasingly to issues                       hospital. Because a perforated coronary
regionalization may be concentrated in                       such as access. These hypothetical pro­                       artery during coronar angioplasty ne­
patients who are sicker and need sur­                        jections should be viewed with some                           cessitates immediate CABG surgery,
gery on an emergency basis. These
                           caution , but they may be regarded as                         the results of this study also suggest
results imply that the greater skills of                     rough approximations of the savings in                        that coronary angioplasty should be

surgical teams at higher-volume hospi­                       lives that might occur if CABG surgery                        performed only in facilities with a read­
tals may be particularly necessar to                         were provided                to   patients only in            ily available , experienced , high-volume
care for patients undergoing non­
                           higher-volume hospitals.                                      CABG surgery team.
scheduled CABG surgery. In particular                          The elimination of nonscheduled sur­                         The question of which specific hospi­
recent evidence suggests that members                        gery at lower-volume               hospitals would           tals should perform CABG surgery can­
of the team in addition to the primary                       result in even lower volumes , and possi­                    not be answered directly by this study.
surgeon , in particular the anesthe­                         bly poorer outcomes for the remaining                        Despite the overall results that show a
siologist , may be equally important in                      scheduled patients. A more attractive                        positive effect for volume , it is always
determining outcome. ,. Empirc sup­                          strategy might be to shift all CABG                          possible that a paricular lower-volume

port is also provided for the recommen­                      surgery to medium- and higher-volume                         hospital may have good outcomes , while
dation by the American College of Sur­                       facilties. This shift could              be accom­           an individual high-volume hospital may
geons that at           least 150 open heart                 plished in a variety of ways , such as by                    have poor outcomes. !S In the aggregate
procedures be performed by a surgical                        making hospital and/or specialty                    ac­      however, the data suggest strongly that
team each year. The volume of surgery                        creditation dependent on the volume of                       average outcomes would be improved if
at a hospital was also                 found to be           surgery performed , or by selective con­                     patients who require CABG surgery,
positively associated with outcomes                          tracting by health insurers. Given the
                      particularly nonscheduled surgery,
other than surival; average post­                            poor outcomes at lower-volume hospi­                         have this procedure in higher-volume

operative length of stay and the per­
                       tals reported in this and other studies                      hospitals.
centage of patients who had long stays                       the likeliood of increased   numbers of
were signficantly lower for patients                                                                                         Ths study wa support by a contract with the
                                                             malpractice suits at lower-volume hos­                       Blue Shield of Calorna            Education and Research
who received surgery in higher-volume                        pitals might also have the effect of forc­                   Foundation.
hospitals.                                                   ing the closure of lower-volume surgery                         'T         study involved efforts by a number of
  The hypothetical savings that might                        units.                                                       persons who were instruenta in its inception and
result from performing all operations at                         The implications of this study for re­
                                                                                                                          conduct , includig Thm           Pus
                                                                                                                                                      and Paul Gottlober
                                                                                                                          frm the Ofce of Analysis and Inspections , Ofce
higher-volume hospitals are based on                         gionalization and other policies related                     of the Inspetor Genera , US Deparment of

several assumptions that might no                            to selective use of certain hospitals will
                  Health and Human Services , San Fracisco; Amos
prove to be true if patients were actually                   depend , to some extent , on future stud­                    Cary frm Blue Shield of Californa , San Fran­
diverted to higher-volume hospitals. In                                                                                   cisco; John Buner, MD , and Byron W. Brown
                                                             ies of the reasons for the differential                      PhD , from Staord (Cal University; and Ste­
particular, most of the lifesaving poten­                    outcomes of CABG surgery and on the                          phen J. McPhee , MD , Benson B, Roe , MD , Car
tial is seen in patients having                  non­        location of hospitals in a particular geo­                   Fox , Jan Tetreault , Debora Peltzman , and Eliz­
scheduled surgery. Thus , the avail­                                                                                      abeth Ms ari frm the University of Calornia
                                                             graphic area. The fact that , in this                        San Francisco, Without the help and insights of
abilty of a            nearby      higher-volume             study, most of the low-volume hospitals                      these and other persons ,          this project would not
hospital performing CABG surgery is                          with poor outcomes were located within                       have been possible,


References
1. Luft HS, Bunker J, Enthoven A: Should opera­
tions be regionalized? The empirical relation be­
                                                             surgery.    Am Coli Surgeons Bull     Januar 1984            11.   Interiol Classifation of Diseases, Ninth
                                                             67- 69.                                                      Revion , Clinical Modifialion      ed 2 , publication
tween surgical volume and mortality. N EnglJ Med             7. Kennedy JW, Kaser GC , Fisher LD , et al:                 (PHS) 80- 1260. US Dept of Health and Human
1979;30l:1364- 1369,                                         Clinical and angiographic predictors of operative            Services , Public Health Service , Health Care Fi­
2. Luft HS: The relation between surgical volume             mortlity from the collaborative study in coronar             nancing Administration , September 1980 , vol 1­
and mortty: An exploration of causal factors and             artery surgery (CASS),        Circulation 1981;63:793­       12. Showstack JA , Hughes Stone M , Schroeder
alternative models,    Med Care   1980;18:940- 959,          80L                                                          SA: The role of changing clinical practices in the
3. F!ood AB , Scott WR , Ewy W: Does practice                8. Hammermeister KE , Kennedy JW: Prdictors                  rising costs of hospital car. N Engl J, M ed            1985;
make perfect? I, The relation between hospital               of surgical mortality in patients undergoing direct          313:120l- 1207.
volume and outcomes for selected diagnostic cate­            myocardial revascularzation,         Circulation 1974;
      13. Cohen J,         Cohen P:    Applied Multiple Regres­
gories.   Med Care 1984;22:98- 114,                          49- 50(suppl   2):112-115.                                   sion/Corlation Analysis for the Belwviorl Sci­
4. Flood AB , Scott WR , Ewy W: Does practice                9. Campeau L , Lesperance J, Crochet D , et al:              ences         ed 2. Hilsdale , NJ, Lawrence Erlbaum
make perfect? II, The relation between volume and            Clinical and angiographic determinants of early              Associates Inc ,1983.
outcomes and other hospital characteristics,       M ed
     mortality related to autocoronary bypass surgery,            14. Slogoff S, Keats AS: Does perioperative myo­
Care 1984;22:115-125,                                        Can J Surg 1979;22:221-      22,                             cadial ischemia lead to postoperative myocardial

5. McGregor M , Pelletier G: Planning of special­            10. Chaitman BR , Rogers WJ,           Davis K , et ale      infarction?      Anestheiology     1985;62:107- 114,
ized health facilties: Size vs, cost and effectiveness       Operative risk factors in patients with left main            15. Luft HS , Hunt SS: Evaluating individual hos­
in heart surgery. N Engl J Med        1978;299:179- 18L      coronary-artery disease.      N Engl J Med   1980;303:       pital quality through outcome          statistics,     JAMA
6. Guidelines for ininimal standards in cardiac
             953- 957,                                                    1986;255:2780-2784,




JAMA , Feb 13 ,   1987- VoI257 , NO.                                                                                    Coronary Artery Bypass- Showstack et al                   789

                                                          Printed and Published in the United States of America
                                                     REFERENCES




American Hospital Association, 
                              Hospital Statistics

198 6 ed i t i on .

Halperin, J., and                      Levine, R.,          Bypass    Times Books,    1985.

Hochman, G., 
                 Heart Bypass               Ballantine Books,   1982.
Metropolitan Life Insurance Company, " Significant Regional
Variations in Cost of Coronary Bypass Surgery,                                  Statistical
Bulletin , April-June 1985.
Preston, T.,                  Coronary Artery              Surgery:   A Critical Review.
Raven Press,                   1977.
Roe, B., " The UCR Boondoggle, " Sounding Boards, The New

England Journal of Medicine , Vol. 305, Number I, July 2, 1981.


Showstack, J. et al., " Coronary Artery Bypass Graft Surgery

California, 1983: Outcomes and Charges,    Discussion Paper
Series, April 14, 1986.
